  September 1, 2006




Financial Management
Providing Interim Payments to
Contractors in Accordance with the
Prompt Payment Act
(D-2006-108)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
C.F.R.                Code of Federal Regulations
DCAA                  Defense Contract Audit Agency
DFARS                 Defense Financial Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
EDM                   Electronic Data Management
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
MOCAS                 Mechanization of Contract Administration Service
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
U.S.C.                United States Code
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                         September 1,2006
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
                           SERVICE, HEADQUARTERS
                         DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                           SERVICE, COLUMBUS
                         DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                           AGENCY
SUBJECT: Report on Providing Interim Payments to Contractors in Compliance with the
         Prompt Payment Act (Report No. D-2006-108)

      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.
        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Under Secretary of Defense for Acquisition, Technology, and Logistics and the
Defense Finance Accounting Service Columbus comments were partially responsive. We
request additional comments on Recommendation A.1. and A.3. by October 2,2006. In
addition, we request that the Defense Finance Accounting Service Columbus provide
additional comments related to the management control weakness and the related
potential monetary benefits.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audcolu@,dodi~.mil.Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIF'RNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to James L. Kornides at (614) 751-1400 ext. 21 1 or Mr. Mark Starinsky at (614)
751-1400 ext. 231. The team members are listed inside the back cover. See Appendix B
for the report distribution.
                               By direction of the Deputy Inspector General for Auditing:




                                       Defense Financial Auditing
                                                Service
               Department of Defense Office of Inspector General
Report No. D-2006-108                                                September 1, 2006
  (Project No. D2006-D000FJ-0076.000)

        Providing Interim Payments to Contractors in Accordance
                      with the Prompt Payment Act

                                 Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for disbursing
and processing interim payments on cost-reimbursement service contracts in accordance
with the Prompt Payment Act should read this report. It discusses internal controls that
ensure payments are made in a timely manner.

Background. Each year, DoD makes thousands of interim payments on the
cost-reimbursement type contracts that it uses to obtain services. Interim payments on
service contracts include payments for developing software, providing software support,
developing and testing mechanical parts, and providing engineering services related to
developing and maintaining weapons systems. The National Defense Authorization Act
of 2001, Public Law 106-398, amended the Prompt Payment Act of 1998 and required
that these interim payments comply with all requirements of the Prompt Payment Act.
The Prompt Payment Act of 1998, section 3903, title 31, United States Code, requires
that the payment date is the date payment is due under the contract for the item of
property or service provided, or 30 days after a proper invoice for the amount due is
received if a specific payment date is not established by contract. The Prompt Payment
Act also requires an agency to make payments no more than 7 days prior to the payment
due date, unless the agency head or designee has determined (on a case-by-case basis)
that earlier payment is necessary. In FY 2005, the Defense Finance and Accounting
Service Columbus made interim payments subject to the Prompt Payment Act totaling
$32.1 billion.

Results. During FY 2005, the Defense Finance and Accounting Service Columbus
prematurely disbursed approximately $28.4 billion of the $32.1 billion of interim
payments on cost-reimbursement service contracts. These early payments resulted in
approximately $9.4 million in lost Federal interest. Potential monetary benefits of
$56.4 million could be recognized through interest savings during the period FY 2006
through FY 2011 if the Defense Finance and Accounting Service Columbus improves the
cash management of interim payments on cost-reimbursement service contracts.
Specifically, DoD needs to establish a policy that requires a payment due date of 30 days
for interim payments on cost-reimbursement service contracts (finding A).

The Defense Finance and Accounting Service Columbus did not identify either the
proper invoice receipt date, payment due date, or interest payments due on 24 of the 100
interim payments on cost-reimbursement service contracts that we judgmentally tested.
The Defense Finance and Accounting Service Columbus needed to improve controls over
identifying invoice receipt dates and calculating payment due dates and interest payments
owed on cost-reimbursement service contracts interim payments (finding B). See the
Finding sections of the report for the detailed recommendations.
Management Comments and Audit Response. The Deputy Chief Financial Officer for
the Under Secretary of Defense (Comptroller)/Chief Financial Officer concurred with our
recommendation to remove interim payments for cost-reimbursement service contracts
from the DoD Financial Management Regulation definition of contract financing. The
Center Site Deputy Director, Defense Financial Accounting Service Columbus concurred
with our recommendation to provide training to employees for entering invoice receipt
date information.

The Director, Defense Procurement and Acquisition Policy; the Deputy Chief Financial
Officer for the Under Secretary of Defense (Comptroller)/Chief Financial Officer; and
the Center Site Deputy Director, Defense Financial Accounting Service Columbus
nonconcurred that DoD policy for making interim payments on cost-reimbursement
service contracts did not comply with the Prompt Payment Act and the National Defense
Authorization Act of 2001. The Director and the Deputy asserted that Defense Federal
Acquisition Regulation Supplement section 232.906, “Making Payment,” properly
establishes a 14-day due date for interim payments on cost-reimbursement service
contracts and falls within Office of Management and Budget guidelines. The Director,
Defense Procurement and Acquisition Policy disagreed that the payment due date for
interim payments on cost-reimbursement service contracts should be changed to 30 days.
The Center Site Deputy Director, Defense Financial Accounting Service Columbus
disagreed that the Defense Finance and Accounting Service should discontinue its policy
to pay interim payments on cost-reimbursement service contracts more than 7 days prior
to the payment due date. He also stated that there was no management control weakness
and; therefore, no potential monetary benefit We disagree that Defense Federal
Acquisition Regulation Supplement section 232.906 permits early payment and that
Office of Management and Budget regulations permit DoD to change the payment due
date. The National Defense Authorization Act of 2001 and Code of Federal Regulations
are clear that interim payments on cost-reimbursement service contracts are subject to the
Prompt Payment Act due date requirements for invoices.

We request that The Director, Defense Procurement and Acquisition Policy and the
Center Site Deputy Director, Defense Financial Accounting Service Columbus provide
additional comments on the final report by October 2, 2006. See the Finding sections of
the report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objective                                                                     2

Review of Internal Control                                                    2

Findings
     A. Early Interim Payments Made on Cost-Reimbursement Service
          Contracts                                                          3
     B. Identifying Invoice Receipt Dates, Payment Due Dates, and Interest
          Payments Due                                                       14

Appendixes
     A. Scope and Methodology                                                17
          Prior Coverage                                                     18
     B. Report Distribution                                                  19

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   21
     Under Secretary of Defense (Comptroller)/Chief Financial Officer        24
     Defense Finance and Accounting Service Columbus                         27
Background
           The President’s Management Agenda focuses on areas where the Federal
           Government can improve its performance. Financial management is 1 of 14 focus
           areas. The Office of Management and Budget (OMB) noted that noncompliance
           with laws and regulations governing the financial management area is one factor
           preventing the Federal Government from achieving unqualified and timely audit
           opinions on its annual financial statements. OMB Circular A-1231 augments the
           Chief Financial Officers Act of 1990 requiring that auditors report on compliance
           with laws and regulations related to financial reporting. This report discusses
           compliance with the Prompt Payment Act and the controls over payments to
           contractors who provide services to DoD through cost-reimbursement contracts.

           Interim Payments on Cost-Reimbursement Service Contracts. DoD uses
           cost-reimbursement contracts when uncertainties involved in contract
           performance do not permit costs to be estimated with sufficient accuracy to use
           any type of fixed-price contract. Examples of services purchased through cost-
           reimbursement contracts are engineering and development of software, software
           support, developing and testing of mechanical parts, and engineering services
           related to weapons systems.

           The Defense Finance and Accounting Service (DFAS) Columbus records
           indicated that its Contract Pay Product Line Division paid interim payments of
           about $32.1 billion on cost-reimbursement service contracts during FY 2005. The
           National Defense Authorization Act of 2001 requires interim payments on cost-
           reimbursement service contracts to comply with the requirements of the Prompt
           Payment Act of 1998.

           Prompt Payment Act. The Prompt Payment Act of 1998, section 3903, title 31,
           United States Code (31 U.S.C. 3903), was enacted by Congress to require Federal
           agencies to pay bills on a timely basis and to pay interest penalties when
           payments are made late.

           DFAS Columbus and Mechanization of Contract Administration Service
           (MOCAS). The Contract Pay Product Line Division uses MOCAS, an electronic
           integrated system for contract administration. For interim payments, MOCAS
           automatically calculates the payment due date as 30 days after the proper invoice
           receipt date (adjusted for any additional days related to improper invoices).
           MOCAS releases the interim payments for disbursement as soon as possible, but
           if the date MOCAS disburses the payment occurs after the MOCAS due date,
           MOCAS should generate and send a report to the DFAS Columbus Prompt
           Payment Interest Branch for further review.




1
    Circular A-123, “Management’s Responsibility for Internal Control.”

                                                     1
Objective
     The audit objective was to determine whether DFAS Columbus was making
     interim payments on cost-reimbursement contracts in accordance with the Prompt
     Payment Act. We also reviewed the management control program as it related to
     the overall objective. See Appendix A for a discussion of the scope and
     methodology and prior coverage related to the objective.


Review of Internal Control
     DoD Instruction 5010.40, “Managers’ Internal Control program Procedures,”
     January 4, 2006, requires DoD organizations to implement a comprehensive
     system of management controls that provides reasonable assurance that programs
     are operating as intended and to evaluate the adequacy of the controls.

     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of DFAS Columbus management controls over making interim
     payments in compliance with the Prompt Payment Act on cost-reimbursement
     service contracts. Specifically, we determined whether DFAS Columbus controls
     prevented noncompliance with the Prompt Payment Act. We also reviewed the
     adequacy of management’s self-evaluation of those controls.

     Adequacy of Management Controls. We identified material management
     control weaknesses for DFAS Columbus, as defined by DoD Instruction 5010.40.
     The DFAS Columbus management controls for complying with the Prompt
     Payment Act were not adequate. The recommendations in this report, if
     implemented, will correct the identified weaknesses and could result in
     $56.4 million in interest savings during the period FY 2006 through FY 2011. A
     copy of the report will be provided to the senior officials responsible for
     management controls in DFAS Columbus.

     Adequacy of Management’s Self-Evaluation. DFAS officials identified
     compliance with the Prompt Payment Act as an assessable unit. However, DFAS
     did not identify any material control weaknesses related to the assessable unit
     because the scope of their review was not adequate.




                                        2
                   A. Early Interim Payments Made on
                      Cost-Reimbursement Service
                      Contracts
                   In FY 2005, DFAS Columbus disbursed approximately $28.4 billion in
                   291,618 interim payments on cost-reimbursement service contracts earlier
                   than permitted by the Prompt Payment Act.2 The early payment of these
                   invoices resulted from DFAS implementation of Federal and DoD policies
                   that were in conflict with the Act. These early payments contributed to a
                   calculated $9.4 million in lost Federal interest based on the Treasury
                   Current Value of Funds rate. The U.S. Treasury could realize
                   $56.4 million in interest savings during the period FY 2006 through
                   FY 2011 if DoD corrects its payment practices related to interim
                   payments.


Noncompliance with the Prompt Payment Act
           DFAS Columbus did not always make the $32.1 billion of interim payments on
           cost-reimbursement service contracts in compliance with the cash management
           provisions of the Prompt Payment Act. MOCAS records showed that DFAS
           Columbus paid $28.4 billion of those invoices earlier than allowed under the
           provisions of the Act.

           The Prompt Payment Act requires the payment date for an invoice to be the date
           payment is due under the contract or 30 days after a proper invoice is received if a
           specific payment date is not established by the contract. The Act also states that
           an agency must make payments no more than 7 days prior to the payment due
           date unless the agency head or designee has determined (on a case-by-case basis)
           that earlier payment is necessary. Title X, subtitle A, section 1010 of the National
           Defense Authorization Act of 2001 applied the provisions of the Prompt Payment
           Act to interim payments on cost-reimbursement service contracts. Title 5, code of
           Federal Regulations (5 C.F.R.), section 1315.4 (2), 2006, provides the
           implementing guidance for the Prompt Payment Act. As such, 5 C.F.R. Section
           1315.4 (2) requires that the payment due date for interim payments on cost-
           reimbursement service contracts be 30 days after the date a proper invoice is
           received.

           Based on the above requirements of the Prompt Payment Act and amendments,
           DFAS was required to make interim payments on cost-reimbursement service
           contracts between the 23rd and 30th day after receipt of a proper invoice.
           However, DFAS Columbus records showed that most of these interim payments
           on cost-reimbursement service contracts disbursed in FY 2005 through MOCAS
           were paid earlier than 7 days prior to the due date MOCAS calculated. Table 1
           shows that DFAS Columbus paid 90 percent of the invoices and 88 percent of the

2
    This information is based on data DFAS provided. See Appendix A for the scope and methodology used
    to determine the number and amount of interim payments.

                                                    3
           disbursement amounts earlier than 7 days prior to the due date. Neither the
           Offices of the Under Secretaries of Defense3 nor DFAS Columbus documented a
           need to make these payments early, but DFAS personnel stated that making
           interim payments as soon as possible was a long-standing practice.

          Table 1. Interim Payments on Cost-Reimbursement Service Contracts
                    DFAS Columbus Paid in FY 2005 Using MOCAS

                                                  Number of                             Dollar Value
          Category                                 Invoices                              (in billions)
          Early                                     291,618                                     $28.4
          On Time                                    22,327                                        2.4
          Late                                        6,410                                        1.1
          Unclassified*                               2,199                                        0.2
          Total                                     322,554                                     $32.1
          *Note: We were unable to classify these invoices as early, on time, or late because there
          was no MOCAS due date provided in the MCOAS data obtained from DFAS Columbus.
          We were unable to determine why the due date was not calculated.


           On average, DFAS Columbus made the payment on the sixteenth day after it
           received the invoice, which is 7 days sooner than allowable by the Prompt
           Payment Act.


DFAS Payment Policy Implementation
           DFAS Columbus followed policy that was published in Federal and DoD
           regulations instead of complying with the Prompt Payment Act. Specifically,
           parts of the implementing Code of Federal Regulations (C.F.R.), Federal
           Acquisition Regulation (FAR), Defense Federal Acquisition Regulation
           Supplement (DFARS), DoD Financial Management Regulation (FMR), and
           DFAS desk policies contained guidance related to the payment due dates of
           invoices and the cash management of interim payments on cost-reimbursement
           service contracts that differed from requirements set forth in the Prompt Payment
           Act.

           Establishing the Payment Due Date. The FAR and DFARS clauses that
           establish the payment due date are in conflict with the Prompt Payment Act, the
           National Defense Authorization Act, and the OMB implementing regulation in
           5 C.F.R. Section 1315.

           Specifically, 31 U.S.C. 3902 (b) states that interest penalty shall be paid from the
           period beginning on the day after the required payment date. Further, 31 U.S.C.
           3903 states that the required payment date for invoices is the date payment is due

3
    (Comptroller)/Chief Financial Officer and Acquisition, Technology, and Logistics.

                                                       4
           under the contract for the item of property or service provided or 30 days after the
           date a proper invoice is received. The National Defense Authorization Act of
           2001, which amends the Prompt Payment Act, states that when DoD acquires
           services from a business under a cost-reimbursement contract requiring interim
           payments, DoD must pay interest to the contractor on payments made more than
           30 days after the date of the receipt of a proper invoice. Furthermore, 5 C.F.R.
           section 1315.4 (2) states that the payment due date for interim payments on cost-
           reimbursement service contracts is 30 days after the date of receipt of a proper
           invoice.

           FAR 32.9(e), “Prompt Payment,” states that for purposes of computing late
           payment interest penalties that may apply, the due date for making interim
           payments on cost-reimbursement contracts for services is 30 days after the date of
           receipt of a proper invoice. However, FAR 32.908(c)(2) allows agency policies
           and procedures to amend the standard 30 days payment due date clause and insert
           a period less than 30 days. In contrast to FAR 32.908(c)(2), the FAR lists an
           “Alternate I” clause at the end of FAR 52.232-25, which states that for the
           purpose of computing late payment interest penalties that may apply to interim
           payments on the cost-reimbursement service contract, the due date for payment is
           the 30th day after the designated billing office receives a proper invoice.

           Further, DFARS 232.906, “Prompt Payment Act,” states that generally the
           contracting officer shall insert the standard due date of 14 days for interim
           payments on cost-reimbursement contracts for services in the clause at FAR
           52.232-25, “Prompt Payment,” when using the clause with its Alternate.4

           Therefore, if the contracting officer follows the guidance in DFARS 232.906,
           then the contract will not be paid in compliance with the Prompt Payment Act,
           which states that interest shall begin to accrue on the day after the required
           payment date (in this case, 14 days) and the National Defense Authorization Act
           of 2001, which states that interest will begin to accrue on interim payments for
           cost-reimbursement service contracts after the 30th day, regardless of the
           Alternate I FAR clause. However, the National Defense Authorization Act and 5
           C.F.R. section 1315 are both clear that the payment due date for interim payments
           on cost-reimbursement service contracts is 30 days after an invoice is received,
           and that is when the interest should start to accrue.

           The FAR and DFARS policies that allow these payments to be paid earlier than
           other contracts provides preferential treatment for this type of billing, despite
           specific exclusion by 5 C.F.R. section 1315.4 (2) and categorization as standard
           invoices by the National Defense Authorization Act of 2001. Since almost all
           contractors can argue that they have cash flow concerns that warrant early
           payment, the DoD policy of paying these invoices early goes too far in favor of
           some contractors. DoD makes other types of invoice payments that are not nearly
           so favorable. For example, contractors bill for service payments on fixed-price

4
    This regulation changed during the course of the audit on December 20, 2005. The DFARS 232.906
    (originally titled “Contract Financing Payments”), in effect at the time the sample invoices were paid,
    stated that “generally the contract officer shall insert the standard due dates of . . .14 days for interim
    payments on cost type contracts in paragraph (b)1() of the Prompt Payment clauses at FAR 52.232-25.”
    The policy related to a 14 day payment due date did not change.

                                                         5
contracts that DoD does not routinely pay until the 23rd day after receipt.
Contractors who provide goods must also wait until the 23rd day for payment.
These contractors have the same payroll and expenses that contractors working
under a cost-reimbursement contract have. Therefore, DoD must work to treat its
contractors the same.

We performed a judgmental sample on 30 service contracts with interim
payments to determine if the DFARS provisions were enacted in the contract and
the contract provided for a shorter payment timeframe than 30 days. While none
of the contracts amended the standard 30-day payment due date, the DFARS
should be revised to state that the standard due date of 30 days is required to
ensure compliance with the Prompt Payment Act and 5 C.F.R. Section 1315.4 (2).

Cash Management Requirements. Section 1315 of 5 C.F.R, the FAR, the
DFARS, the FMR, and DFAS desk procedures are in conflict with either the
Prompt Payment Act or the National Defense Authorization Act of 2001 as it
relates to cash management of interim payments on cost-reimbursement service
contracts.

Specifically, the Prompt Payment Act permits an agency to make payment up to
7 days prior to the required payment date, or earlier as determined necessary on
an individual basis by an agency. The National Defense Authorization Act states
that the provisions of the Prompt Payment Act apply to interim payments on cost-
reimbursement service contracts as if the interim payments were originally
subject to the Prompt Payment Act.

        5 C.F.R. Section 1315. The Prompt Payment Act required OMB to issue
implementing guidance of the Act. OMB issued 5 C.F.R. section 1315 to fulfill
this requirement. However, OMB only partially implements the requirements of
the Prompt Payment Act and the National Defense Authorization Act of 2001.
Specifically, 5 C.F.R. section 1315.4(j) states that the authority to make an early
payment must be used cautiously, weighing the benefits of making a payment
early against the good stewardship inherent in effective cash management
practice.

        However, OMB allows an agency to use “accelerated payment methods”
when it determines that earlier payment is necessary. One of the accelerated
payment methods allows agency heads to make interim payments on cost-
reimbursement service contracts earlier than 7 days prior to the payment due date
in keeping with agency regulations or policies. This provision appears to go
beyond the purview of the Prompt Payment Act which granted OMB the authority
to prescribe regulations to permit agencies to make expedited payments based on
case-by-case determinations.

        FAR and DFARS. The FAR also permits the use of accelerated payment
methods. At the time the universe of invoices was paid in FY 2005, the DFARS
compounded the issue, stating that it is DoD policy to make contract financing
payments as quickly as possible. DFARS also stated that interim payments on
cost type contracts are contract financing. Both of these policies were in conflict
with the Prompt Payment Act and the National Defense Authorization Act of


                                     6
2001. In addition, DFARS did not follow OMB guidance to require DoD to state
why making early payment is necessary.

        Since those invoices were paid, DoD has revised DFARS 232.906 by
removing interim payments on cost-reimbursement service contracts from
contracting financing and removing the statement that it is DoD policy to pay
those invoices as quickly as possible. However, the FMR and DFAS regulations
remained the same.

        FMR and DFAS Procedures. The DoD Financial Management
Regulation, DoD 7000.14-R, volume 10, chapter 7, paragraph 070205, B10,
“Prompt Payment Act,” reiterates the DFARS concept that departmental policy is
to make contract financing payments as expeditiously as possible and that
contract financing payments include interim payments on cost type contracts. It
also states that in accordance with DFARS, the standard due date for interim
payments on cost type contracts is 14 days after the date an invoice is received
and that no interest penalty will be paid as a result of delayed contract financing
payments.

        On the other hand, DFAS Desk Procedure 101 states that cash
management policy requires that all contractor invoices be paid no sooner than
7 days prior to the due date. It says all requests for early releases should be in
writing, well documented, and signed by the Commander of the requesting
activity or their designee.

        DFAS Desk Procedure 800 states that the DoD cash management
objective is to pay bills on time. Late payments result in interest penalties, which
cause prices of goods and services used within DoD to rise. Early payments
cause cash to be withdrawn from the U.S. Treasury prematurely, which results in
unnecessary service costs on the national debt. It also states that interim cost or
bureau vouchers must be paid within the standard due date of 14 days (per
DFARS 232.906). Desk Procedure 904 states that DFAS pays late payment
interest penalties on late payments of public vouchers for contracts issued for
services.

While both OMB (through 5 C.F.R. section 1315) and the Prompt Payment Act
place the burden on the agency to determine whether early payments should be
made, the Prompt Payment Act intends that the early payments be made only as
an exception – when determined necessary on a case-by-case basis – rather than
through a broad agency policy that permits early payments with little justification.
This general agency policy allows more early payments to occur because the
agencies do not have to document case-by-case determinations that early payment
is appropriate. DFAS Columbus paid close to 300,000 invoices early, totaling
$28.4 billion.
Because DoD revised the DFARS policy related to accelerated payments for
interim payment on cost-reimbursement service contracts, the FMR, and DFAS
Desk policy, which use the expedited methods should be changed and DFAS
should immediately cease making interim payments on cost-reimbursement
service contracts as quickly as possible, and only make the payments 7 days
earlier than required by the individual contract. Early payments do not comply

                                      7
           with the Prompt Payment Act. Policies allowing early payments need to be
           revised as quickly as possible. In addition, DoD needs to update the FMR to
           distinguish the difference between interim payments on cost-reimbursement
           service contracts and contract financing payments. DFAS also should update its
           desk procedures to change the standard due date of interim cost or bureau
           vouchers for service contracts to 30 days after receipt of an invoice, as required
           by the Prompt Payment Act.


Effects of Noncompliance
           As a result of DFAS Columbus noncompliance with the Prompt Payment Act, we
           calculate that DFAS Columbus caused the U.S. Treasury to lose about
           $9.4 million in interest because of the early payment of 291,618 invoices in
           FY 2005.5

           We calculated the interest lost on early payments by dividing the applicable
           Treasury Current Value of Funds rate for each invoice by 360 days, multiplying
           by the number of days the invoice was paid early, and then multiplying by the
           invoice amount as required by the Department of Treasury guidance.6

           The noncompliance and resulting interest lost primarily resulted from DFAS
           following Federal and DoD policies that effectively do not comply with the
           Prompt Payment Act. DFAS allowed agencies to issue regulations to make
           interim payments on cost-reimbursement service contracts earlier than 7 days
           prior to the payment due date. If controls governing compliance with the Prompt
           Payment Act are not corrected, DFAS Columbus could continue to pay a
           significant number of interim payments early and violate the provisions of the
           Prompt Payment Act. Specifically, in FY 2005 we determined that $9.4 million
           could have been saved by making payments on time instead of early. Changing
           the DoD practice of paying these invoices early could save the Government
           $56.4 million during the period FY 2006 through FY 2011 in interest savings.


Management Comments on the Finding and Audit Response
           Management Comments on DFAS Compliance with the Prompt Payment
           Act. The Deputy Chief Financial Officer for the Under Secretary of Defense
           (Comptroller)/Chief Financial Office disagreed with our assertion that DFAS
           Columbus was disbursing a significant number of interim payments on cost-
           reimbursement service contracts earlier than allowable by the Prompt Payment
           Act.


5
    This information is based on U.S. Treasury information and data DFAS provided. See Appendix A for
    the scope and methodology used to determine the number and amount of DFAS Columbus interim
    payments.
6
    U.S. Treasury guidance can be found at http://www.fms.treas.gov/prompt/index.html.

                                                     8
She stated that the Prompt Payment Act provides that the required payment date,
which is used as a baseline to assess any interest penalty due to the contractor, is
the date payment is due under the contract terms and conditions, or 30 days after a
proper invoice is received, if a specific payment date is not established by the
contract. The Deputy then stated:
       In practice, the DFAS makes payments under cost-reimbursement
       contracts for services in accordance with the date payment is due under
       the contract. The Defense Federal Acquisition Regulation Supplement
       (DFARS) 232.906 contract clause entitled “Making payment,” inserted
       in cost-reimbursement contracts for services, states that, generally, “the
       contracting officer shall insert the standard due date of 14 days for
       interim payments on cost-reimbursement contracts for services in the
       contract.” As reported in Section A of the OIG’s [Office of Inspector
       General] draft audit report, DFAS paid these invoices, on average,
       within 16 days of receipt of a proper payment. . . In our opinion, the
       OIG misconstrued the purpose of establishing the required payment
       date in the PPA, which is to establish the baseline for calculating the
       interest penalties due to the contractor, not to fix the date on which an
       Agency must make payment. . .Many factors influence an Agency’s
       decision as to when contract payments should be made. Cash
       management practices, good financial stewardship, fostering
       competition for Government contracts, and lowering overall contract
       prices are some of the elements that must be considered when
       determining those practices that best service the Department’s interest.
       The Departments’ business decision to make payments on cost-
       reimbursement contracts for services within 14 days falls well within
       the Department’s discretion, Prompt Payment Act provisions, and
       Office of Management and Budget (OMB) guidelines. In the
       Background Information section of the Federal Register publication of
       the final rule…OMB specifically addressed an Agency’s prerogative to
       make these policy decision.

Audit Response. We disagree with the Deputy Chief Financial Officer’s
comments. DFAS did not make interim payments on cost-reimbursement
contracts in accordance with the terms of the contract. None of the contracts in
our sample included the 14-day due date in the FAR 52.232-25. All used the
standard 30-day due date. Therefore, the contractual due date for the Prompt
Payment Act interest and cash management is 30 days from receipt of a proper
invoice. DFAS policy to pay these invoices, irrespective of the contractual
payment terms, as soon as possible is not in accordance with the terms of the
contracts and violates the Prompt Payment Act.

The National Defense Authorization Act of 2001 and 5 C.F.R. 1315 state that
interim payments for cost-reimbursement service contracts must have a payment
due date of 30 days. The Prompt Payment Act states that interest will start to
accrue the day after the contractual payment due date. DoD cannot change the
payment due date for interim payments on cost-reimbursement services and
comply with the Act. OMB does not give Agencies the authority to change the
payment due date for interim payments on cost-reimbursement service contracts.
If a contracting officer inserts payment due date terms of 14 days in the contract
(and none of the contracting officers in our sample did) then, according to the
                                           9
           Prompt Payment Act, interest would start to accrue on the 15th day, which would
           violate the National Defense Authorization Act of 2001.

           We disagree with the Deputy Chief Financial Officer’s conclusion that because
           the “average” number of days to make interim payments was 16, DFAS was
           making the payments in accordance with the Prompt Payment Act. There were
           1,907 interim payments on cost-reimbursement service contracts paid in FY 2005
           from our 30 sample contracts, and those payments were made from 2 to 72 days
           after receipt of invoice. The sample also showed that 89 percent7 ($2.4 billion)
           were paid earlier than 7 days prior to the stated due date specified in the
           30 contracts, in accordance with section 52.232-25.

           We agree with the Deputy Chief Financial Officer that many factors influence an
           agency’s decision as to when contract payments should be made. Cash
           management, financial stewardship, and competition are valid factors for payment
           decisions but must not take precedence over the law.


Management Comments on the Adequacy of Management
 Controls and Potential Monetary Benefits.
           Management Comments. The Center Site Deputy Director for Defense Finance
           and Accounting Service Columbus stated that the DFAS Office of Counsel has
           reviewed the proposed material weakness and stated that the OMB regulations
           codified at 5 C.F.R. Part 1315 state, in part, that interim payments may be made
           more than 7 days prior to their due date. As a result, DFAS Columbus does not
           believe a material weakness or any associated interest savings exist.

           Audit Response. We disagree with the Center Site Deputy Director’s comments.
           The OMB regulations state that interim payments may be made more than 7 days
           prior to their due date if agencies determine it is necessary to make early
           payment, and there are agency regulation and policy that permits early payment.
           There is no DoD policy that permits payment to be made earlier than 7 days prior
           to the due date. We request the Center Site Deputy Director reconsider his
           position and provide additional comments on the final report.


Recommendations, Management Comments, and Audit
  Response
           Deleted Recommendations. Based on the updated DFARS 232.906 clause and
           the Director, Defense Procurement and Acquisition Policy comments, we deleted
           part of Recommendation A.1.

           A.1. We recommend that the Under Secretary of Defense for Acquisition,
           Technology, and Logistics revise the Defense Federal Acquisition Regulation
7
    Judgment sapmle percentage does not generalize to the universe.

                                                     10
Supplement to require contracting officers to establish a payment due date of
30 days for interim payments on cost-reimbursement service contracts.

Management Comments. The Director, Defense Procurement and Acquisition
Policy nonconcurred with the recommendation. He stated that the Federal
Acquisition Regulation and the Defense Federal Acquisition Regulation
Supplement specifically authorize payments on cost-reimbursement contracts for
services within 14 days. He stated that the Prompt Payment Act and all
subsequent implementing regulations establish the payment due date for the
purpose of determining if the payment is late and to assess late payment penalties,
and is not intended to prohibit Agencies from paying a contractor earlier than
30 days. The DoD policy has been well vetted through the regulatory process
since the beginning of the Prompt Payment Act implementation.

He quotes the OMB final rule in the Federal Register 70, 516 (December 30,
2002), which states that “section 1010 (of the 2001 National Defense
Authorization Act) is not intended to modify current agency practices or
policies. . . For example, it is the policy of the Department of Defense to generally
pay contractors in 14 days or less. . .” He also quotes a Government
Accountability Office (GAO) report that indicated late payments caused small
business contractors to obtain more expensive financing. The DoD practice of
making payments under cost-reimbursement contracts for services within 14 days
serves to decrease the contractor’s overall costs, which also ensures that small
businesses are better able to compete for DoD service contacts. As of July 12,
2006, approximately 52 percent of cost-reimbursable service contracts being paid
by DFAS were contracts awarded to small and small, disadvantaged businesses.

He stated that, “OMB and DoD are consistent with Section 3903(a)(1)(B) of Title
31 of the United States Code which states: ‘…The regulations shall (1) provide
that the required payment date is… (B) 30 days after a proper invoice for the
amounts due is received if a specific payment date is not established by
contract. . .’” DFARS 232.906(a)(i) requires a specific 14-day due date be
established in the contract for cost-reimbursable contracts for services.

Audit Response. We disagree with the Director of Defense Procurement and
Acquisition Policy’s comments. The FAR and the DFARS policies that permit a
change to the due date of interim payments on cost-reimbursement services do not
meet the intent of the Prompt Payment Act, the National Defense Authorization
Act of 2001, and the OMB implementing regulations of the Prompt Payment Act.
Those laws and regulations specifically state that interest will begin to accrue on
the day after the required payment date in the contract, which is 30 days for
interim payments on cost-reimbursement service contracts.

We agree with the Director’s discussion of the GAO report that concluded that
small businesses should not be paid late. We do not agree that setting the
payment due date at 14 days for interim payments on cost-reimbursement service
contracts will help this problem. The GAO report discussed all invoices paid, not
just the interim payments. The GAO report also identified that one of the reasons
the small businesses were paid late was because DoD cash management practices
place lower priority on the payment of smaller, less-complex invoices–like those


                                     11
typically submitted by small business contractors. Changing the payment due
date would not stop this practice.

We also agree with the DoD position that timely payments can reduce contract
costs. We are not advocating that DoD make the interim payment after the due
date. We are advocating compliance with sound cash management principles and
established payment practices rooted in the Prompt Payment Act. The National
Defense Authorization Act of 2001 requires the same treatment of interim
payments on cost-reimbursement service contracts as all other standard invoices.
As written, the current DoD policy provides particular guidance on interim
payments for cost-reimbursement service contracts but not thousands of other
invoices, some of which are also from small businesses.

We disagree with the Director’s implication that the majority of interim payments
for cost-reimbursement service contracts are paid to small businesses. We did not
audit the percentage of contracts awarded based on contractor size. However, of
those invoices included in the $32.1 billion that we reviewed, according to DFAS
records, DFAS paid 74 percent of the dollar value ($23.7 billion) to the top
100 DoD contractors and their subsidiaries. The Prompt Payment Act, 31 U.S.C.
§ 3903(a)(8), permits an agency to make payment up to 7 days prior to the
required payment date, or earlier, as determined by the agency to be necessary on
a case-by-case basis. In lieu of its current noncompliant practices, DoD can use
this provision to assist contractors when necessary. We request that the Director
reconsider his position and provide additional comments on the final report.

A.2. We recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer revise the Financial Management
Regulation to remove interim payments on cost-reimbursement service
contracts from the definition of contract financing.

Management Comments. The Deputy Chief Financial Officer concurred with
the recommendations. They will revise the DoD Financial Management
Regulation, volume 10, chapter 7, “Prompt Payment Act,” July 2002 to reflect the
updated list of types of contract financing payments, which will specifically
exclude interim payments under cost-reimbursement service contracts.

A.3. We recommend that the Director, Defense Finance and Accounting
Service Columbus direct Defense Finance and Accounting Service Columbus
personnel to discontinue paying interim payments on cost-reimbursement
service contracts earlier than 7 days prior to the payment due date.

Management Comments. The Center Site Deputy Director for Defense Finance
and Accounting Service Columbus nonconcurred with the recommendation.
Specifically, he stated that OMB guidance is clear that for interim payments
under cost-reimbursement contracts for services, agency heads may make
payments earlier than 7 days prior to the payment due date in accordance with
agency regulations or policies. Furthermore, the DoD regulation in the Defense
Federal Acquisition Regulation Supplement 232.906(a)(i) states, “the contract
office shall insert a standard due date of 14 days for interim payments on cost-
reimbursement service contracts.” Therefore, payments under cost-
reimbursement contracts for services should not be held until 7 days prior to the

                                   12
payment due date. DFAS Columbus will continue to make payment for interim
vouchers on cost-reimbursement service contracts earlier than 7 days prior to the
payment due date unless the underlying regulations are changed or unless directed
otherwise.

Audit Response. We disagree with the Deputy Site Director’s comments.
Although DFARS section 232.906 states that, “generally the contracting officer
shall insert the standard due date of 14 days for interim payments on cost-
reimbursement contracts for service in the clause at FAR 52.232-25, Prompt
Payment, when using the clause with its Alternate I,” it does not permit interim
payments earlier than 7 days prior to the due date. OMB guidance permits an
agency to make payments earlier than the 7 days prior to the payment due date
only if the agency policies permit early payment. The Site Director makes an
assumption that contracting officers are inserting the DFARS section 232.906 in
the FAR clause 52.232-25. For the 30 contracts we judgmentally sampled, the
contracting officer did not change the standard 30-day due date for any contract.
DFAS should use the payment due date in the contract, and not a standard
DFARS clause. In addition, since there is no DoD policy to support payment
earlier than 7 days prior to the payment due date, payment should be only within
7 days prior to the payment due date. We request that the Center Site Deputy
Director reconsider his position and provide additional comments on the final
report.




                                    13
           B. Identifying Invoice Receipt Dates,
              Payment Due Dates, and Interest
              Payments Due
           DFAS Columbus did not always follow the Prompt Payment Act
           requirements for identifying the proper invoice receipt date, payment due
           date, and associated interest payments due related to late interim payments
           on cost-reimbursement service contracts. The noncompliance occurred
           because of human input error. As a result, there is a risk that DFAS
           Columbus will not identify interim payment invoices paid late and
           calculate interest due to the contractor.


Sample of Interim Payments
    For contracts that allow interim payments on cost-reimbursement service
    contracts, the contracting officer (at the appropriate Defense Contract Audit
    Agency [DCAA]) determines whether the contractor should submit the interim
    payment request through DCAA for approval, or directly to DFAS Columbus.
    DFAS considers interim payments to be “direct submit” if the contractor is
    permitted to submit the invoice directly to DFAS, either electronically or as a
    hard-copy invoice annotated, “direct submission authorized.” However, if the
    contractor is required to submit the invoice to DCAA for review prior to
    submission to DFAS, it is not considered direct submit.

    If the interim payments on cost-reimbursement service contracts are not direct
    submit, then, to comply with the Prompt Payment Act requirements, DFAS
    Columbus inputs two invoice dates into MOCAS. Specifically, when an invoice
    that is not directly submitted to DFAS Columbus is received, it is scanned into the
    Electronic Data Management (EDM) system, which automatically assigns the
    MOCAS receipt date. The scanned copy is then forwarded to other personnel at
    DFAS Columbus for further review.

    As required by DFAS policy, DFAS personnel then review the invoice for a date
    stamp indicating when DCAA received the invoice. If there is a DCAA date
    stamp, DFAS Columbus needs to enter this date in the MOCAS field,
    “DCAA/ACO [Administrative Contracting Officer] Receipt Date.” If there is no
    DCAA date stamp, the field is to be left blank. In addition, DFAS Columbus
    looks for the Invoice Preparation Date provided by the contractor and enters it
    into the “Invoice Prep Date” field in MOCAS as well as the Invoice Receipt Date
    field. The Prompt Payment Act requires that the “Invoice Prep Date” be
    considered the proper invoice receipt date if DCAA did not date stamp the
    invoice.

    We judgmentally selected and analyzed 100 sample payments from DFAS data on
    interim payments on cost-reimbursement service contracts to determine whether



                                        14
     DFAS Columbus complied with selected requirements of the Prompt Payment
     Act. Specifically, we determined whether DFAS Columbus properly:

        •   entered the correct invoice receipt date in the required fields,

        •   calculated the due date, and

        •   paid interest to the contractor when required.

Entering the Correct Invoice Receipt Dates
     DFAS Columbus did not always select and enter the correct receipt date on
     hard-copy invoices that it subsequently scanned for further processing, and DFAS
     Columbus entered dates in the wrong fields.

     Selecting the Correct Receipt Date. Out of the 100 sample items, 29 invoices
     submitted in hard-copy format required manual input. For 15 of the 29 scanned
     invoices, DFAS did not enter the correct date into either the “DCAA/ACO
     Receipt Date” or the “invoice prep date” fields. In a prior audit report (Report
     No. D-2006-076, “DoD Compliance with the Prompt Payment Act on Payments
     to Contractors,” April 19, 2006), the Office of the Inspector General
     recommended that DFAS Columbus ensure that Entitlement and Tier II personnel
     are adequately trained in determining the correct receipt dates to enter into
     MOCAS. DFAS agreed to the recommendation to provide additional and
     refresher training related to selecting correct receipt dates to both Tier II and
     Entitlement personnel. Therefore, we will not recommend additional corrections
     at this time.

     Entering Dates in MOCAS Fields. The Prompt Payment Act requires that the
     invoice preparation date be used as the proper invoice receipt date if the
     designated agency office does not annotate or date stamp the invoice. The
     MOCAS system is designed to use the earlier of the “Invoice Receipt Date” or
     “DCAA/ACO Receipt Date” field in calculating the due date for interim
     payments on cost-reimbursement contracts. Further, DFAS Columbus procedures
     require that DFAS Columbus enter the invoice prepared date in the invoice
     receipt date field if DCAA did not date stamp the invoice.

     Out of the 100 sample items that we reviewed, there were 26 invoices that were
     not directly submitted to DFAS Columbus and did not have a date entered in the
     “DCAA/ACO Receipt Date” field in MOCAS. Of those 26 invoices, 24 did not
     have the invoice preparation date in the invoice receipt date field, as DFAS
     Columbus procedures require. MOCAS calculated the payment due date based
     on the date that DFAS Columbus received the invoice instead of the proper
     invoice receipt date (which should have been the invoice preparation date). The
     two invoices that correctly used the invoice preparation date occurred because the
     MOCAS receipt date and the invoice preparation date were the same. Additional
     training would help ensure that the proper dates were entered.


                                           15
Risk Associated With Incorrect Receipt Dates
     DFAS Columbus did not always enter the correct invoice receipt date or enter the
     receipt date in the proper field, which created a risk that late invoices would not
     be identified and that appropriate interest would not be paid on them. For
     example, of the 24 invoices in our sample that either had the receipt date
     incorrectly entered or an improperly calculated payment due date, two were not
     identified as late by DFAS. As a result, DFAS did not pay $15,413.66 of interest
     the Government owed to the contractors.

     To put the issue in perspective, for the 283,530 interim payments DFAS made on
     cost-reimbursement service contracts in FY 2005 that did not have a date entered
     in the “DCAA/ACO Receipt Date” field in MOCAS, 189,778 potentially would
     have been considered late if the invoice preparation date was used instead of the
     MOCAS receipt date. We recognize that some of these invoices were direct
     submit, and that the MOCAS receipt date was correctly chosen. However, there
     is a risk that the invoices that were not directly submitted did not get identified by
     MOCAS as late and, therefore, were not sent to the Prompt Payment Branch for
     further review.


Recommendations and Management Comments
     B.1. We recommend that Defense Finance and Accounting Service
     Columbus provide additional training to ensure that the invoice preparation
     date is entered into the Mechanization of Contract Administration Service
     invoice receipt date field for invoices that should be Defense Contract Audit
     Agency/Administrative Contracting Officer date stamped but are not.

     Management Comments. The Center Site Deputy Director for Defense Finance
     and Accounting Service Columbus concurred with our recommendation.
     Specifically, he stated that the Director, Defense Finance and Accounting Service
     Columbus provided training to the Tier II technicians on how to enter the invoice
     preparation date in the invoice receipt date field in MOCAS when vouchers are
     not date stamped by the Defense Contract Audit Agency.




                                           16
Appendix A. Scope and Methodology
   We reviewed requirements of the Prompt Payment Act and National Defense
   Authorization Act of 2001 related to the allowable payment timeframe for interim
   payments on cost-reimbursement service contracts. Specifically, we determined
   that interim payments on cost-reimbursement service contracts are required to be
   paid between the 23rd and 30th day after receipt of a proper invoice. We then
   examined the DFAS process to pay those invoices to determine if DFAS was in
   compliance with the Prompt Payment Act and National Defense Authorization
   Act of 2001.

   We requested all interim payments on cost-reimbursement contracts made
   through MOCAS during FY 2005. We obtained information from DFAS
   Columbus on the disbursement amount. We divided the invoices into two
   categories, those paid on service contracts and those paid on all other types of
   contracts, based on the contract type.

   To determine the number of early payments, we used the MOCAS due date and
   the MOCAS processed (paid) date. Specifically, any invoice that was paid earlier
   than 7 days prior to the due date was early, any invoice that was paid 7 days early
   through the due date was on time, and any invoice paid after the due date was
   late. We performed this analysis only on payments on service contracts (Kind 6).
   We focused our testing on the invoices that appeared to be paid early. For the
   entire early universe, we calculated the number of days the invoices were paid
   early based on the MOCAS due date and the MOCAS payment date. We then
   calculated the interest lost by dividing the appropriate daily interest rate by 360,
   multiplying by the number of days the invoice was paid early, and then
   multiplying by the disbursement amount.

   To determine whether invoice data had been entered correctly, we selected a
   judgmental sample of 100 invoices paid on service contracts that had no DCAA
   received date in MOCAS. For each sample invoice, we determined, through
   MOCAS data, whether the invoice was paid in accordance with the Prompt
   Payment Act. Specifically, we determined whether the invoice required approval
   before submission to DFAS Columbus (not direct submit) or whether the invoice
   could be submitted directly to DFAS (direct submit). If the invoice was not direct
   submit, we looked for the hard copy invoice in EDM to verify that the invoice
   prep date in MOCAS was correct, that the invoice prep date was entered as the
   MOCAS received date, and that there was no DCAA received date stamp. We
   determined whether the MOCAS due date was calculated correctly. For direct
   submit invoices, the MOCAS received date is the correct receipt date. For
   invoices that are not direct submitted, the DCAA-stamped received date is the
   correct receipt date, or the invoice prep date when there is no DCAA date. We
   also verified that the MOCAS due date was 30 days after the correct receipt date,
   as adjusted for any additional days related to improper invoices. We used the
   MOCAS due date and payment date to identify the invoices that were paid early,
   on time, and late. We calculated the interest due or interest lost by dividing the
   appropriate daily interest rate by 360, multiplying by the number of days the
   invoice was paid early or late, and then multiplying by the disbursement amount.

                                        17
    For the invoices that were paid late, we verified through EDM records whether
    the correct amount of interest was paid to the contractor by DFAS.

    We also selected a sample of 30 contracts from our judgmental sample to
    determine if the DFARS policy to use a 14 day due date was implemented.

    We performed this audit from November 2005 through May 2006 in accordance
    with generally accepted government auditing standards.

    We did not verify that the MOCAS system data, such as kind of contract, DCAA
    received date, and invoice prep date, were accurate. Although these data fields
    are manually input and are subject to human error, we relied on the data without
    formal testing. Therefore, there may be some invoices in our early payments
    universe that were not paid early or as early as we have calculated and our
    amount of incurred lost Federal interest can only be viewed as an estimate.

    Use of Computer-Processed Data. We used computer-processed data obtained
    from the MOCAS system to determine the amount of disbursement, the type of
    contract, the kind of payment, and the universe of interim payments for cost-
    reimbursement contracts, the due dates, and the payment dates. We did not
    perform a formal reliability assessment of the computer-processed data. Our
    results were not negatively affected by not performing a formal reliability
    assessment of MOCAS because the information was used to develop an estimate
    and was not intended to be used as an audited number.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the financial management high-risk area.


Prior Coverage
    During the past 5 years, the Department of Defense Inspector General (DoD IG)
    has issued one report related to compliance with the Prompt Payment Act.
    Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.
    DoD IG
    DoD IG Report No. D-2006-076, “DoD Compliance with the Prompt Payment
    Act on Payments to Contractors,” April 19, 2006




                                        18
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Contract Management Agency
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform



                                          19
Under Secretary of Defense Acquisition,
Technology, and Logistics Comments




                       21
Final Report
 Reference




Deleted




               22
23
Under Secretary of Defense (Comptroller)/ Chief
Financial Officer Comments




                      24
25
26
Defense Financial Auditing Service, Columbus
Comments




                      27
28
29
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
Mark Starinsky
Lisa S. Sherck
Amber M. B. White
